OIG Investigative Reports, PSJA-ISD Trustee Indicted in Bribery Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
U.S. Attorney's Office
Southern District of Texas
Chuck Rosenberg * United States Attorney
FOR IMMEDIATE RELEASE:
July 12, 2005
Nancy G. Herrera
Executive Assistant U.S. Attorney
Phone: 713/567-9301 Fax: 713/718-3415
or
John Yembrick
Public Affairs Specialist
P. O. Box 61129 Houston, TX 77208
Phone: 713/567-9388 Fax: 713/718-3389
Email: usatty.txs@usdoj.gov
Website: http://www.usdoj.gov/usao/txs
PSJA-ISD TRUSTEE INDICTED IN BRIBERY SCHEME
(McALLEN, TX) – United States Attorney Chuck
Rosenberg today announced the unsealing of a three-count federal indictment
charging a local school district trustee and an area contractor with conspiracy
to commit extortion, mail fraud and bribery relating to a federally funded
government program.
Pharr-San Juan-Alamo Independent School District (“PSJA-ISD”) trustee
Guadalupe Jaime Santa Maria, 54, is accused of accepting a bribe from
McAllen-area contractor Alonso Cardenas, Jr., 58, in exchange for favorable,
official votes and influence regarding PSJA-ISD construction contracts.
Both men were arrested by FBI agents early this morning without incident,
and are expected to make their initial appearance this morning before
United States Magistrate Judge Dorina Ramos in McAllen, Texas.
"Every citizen has the right to expect that their public officials
will conduct themselves honestly, and with the best interest of the community
they serve at heart. Officials who abuse their position of trust for personal
gain will face the consequences,” said U.S. Attorney Chuck Rosenberg.
The indictment, returned under seal on July 7, 2005, and unsealed today,
charges both defendants with conspiracy to commit extortion, mail fraud,
and bribery concerning a federally funded governmental agency. Pharr-San
Juan-Alamo Independent School District, a government entity which receives
federal funds, is located in Hidalgo County, Texas. The indictment alleges
that between 2000 and 2004, Santa Maria extorted money and services to
use his influence as a school district trustee in the award of school
district contracts to contractors.
In addition to the conspiracy count, Santa Maria is charged with two
counts of extortion. The second count of the indictment alleges that PSJA-ISD
trustee Santa Maria extorted and received a bribe from contractor Cardenas
in exchange for the award of a contract to one of Cardenas's companies
to perform federally mandated Americans with Disabilities work at PSJA-ISD
facilities.
The third count of the indictment accuses Santa Maria of extortion related
to use of his influence, including the casting of official votes, for
the award of PSJA-ISD construction-related contracts over a course of
several years in exchange for labor and materials used to make improvements
and repairs to his own home.
If convicted of conspiracy, Santa Maria and Cardenas each face a maximum
sentence of five (5) years in federal prison, without parole. Santa Maria
faces a maximum sentence of twenty (20) years in federal prison, upon
conviction, for each count of the two counts of extortion. Each count
carries a maximum fine of $250,000.
The case was investigated by agents with the McAllen Office of the Federal
Bureau of Investigation, and is being prosecuted by Assistant United States
Attorney Larry Eastepp of the Public Corruption Section of the U.S. Attorney's
Office.
An indictment is a formal accusation of criminal conduct, not
evidence. The defendant is presumed innocent unless and until convicted
through due process of law.
Top
Printable view
Share this page
Last Modified: 07/15/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov